   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




March 24, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Opportunities, Inc. (A-06-10-00089)


The attached final report provides the results of our limited scope review at Opportunities, Inc.
In accordance with the American Recovery and Reinvestment Act of 2009, the Office of
Inspector General (OIG) will provide oversight of covered funds to prevent fraud, waste, and
abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General post its publicly available reports on the OIG Web site. Accordingly, this report will be
posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-06-10-00089
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT OPPORTUNITIES, INC.




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-06-10-00089
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P. L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. States distribute
CSBG Recovery Act grant funds to CAAs using the existing statutory formula.

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

Opportunities, Inc. (Opportunities), a private, nonprofit organization, provides a range of
services related to the problems of poverty to 13 counties in northwestern Oklahoma. During
fiscal year 2009, the State agency awarded Opportunities $408,170 in CSBG grant funds and
$565,563 in Recovery Act grant funds. During the same period, Opportunities expended total
Federal grant funds of $6,425,973.

OBJECTIVE

Our objective was to assess Opportunities’ financial viability, capacity to manage and account
for Federal funds, and ability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Opportunities has the ability to manage and account for Federal funds and is capable of operating
a CSBG program in accordance with Federal regulations. However, Opportunities has
weaknesses related to its use of funding for building improvements, allocation of labor costs,
accounting system, board of directors composition, and maintenance of property records.




                                                i
RECOMMENDATIONS

In determining whether Opportunities is appropriately managing and accounting for the
Recovery Act grant funding and whether Opportunities has the ability to operate a CSBG
program in accordance with Federal regulations, ACF should consider the information presented
in this report. In addition, Opportunities should work with the State to address the weaknesses
we found.

OPPORTUNITIES, INC., COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Opportunities generally agreed with our findings and
described actions it had taken to address them. In response to our finding that Opportunities did
not have effective internal controls to adequately safeguard Federal funds in excess of FDIC
limits, Opportunities provided support that its bank participated in the FDIC’s Transaction
Account Guarantee Program, which would have protected the funds. As a result, we removed
that finding from our report. Opportunities’ comments are included in their entirety as the
Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Oklahoma Department of Commerce ............................................................1
              Opportunities, Inc. ........................................................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          USE OF FUNDING FOR BUILDING IMPROVEMENTS .....................................3

          ALLOCATION OF LABOR COSTS........................................................................3

          ACCOUNTING SYSTEM ........................................................................................4

          COMPOSITION OF THE BOARD OF DIRECTORS .............................................4

          MAINTENANCE OF PROPERTY RECORDS .......................................................5

          RECOMMENDATIONS ...........................................................................................5

          OPPORTUNITIES, INC., COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE .........................................................................................5

APPENDIX

          OPPORTUNITIES, INC., COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P. L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. CSBG Recovery
Act funds are distributed to CAAs using the existing statutory formula.

Oklahoma Department of Commerce

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

Opportunities, Inc.

Opportunities, Inc. (Opportunities), a private, nonprofit organization, provides a range of
services related to the problems of poverty to 13 counties in northwestern Oklahoma. During
fiscal year 2009, the State agency awarded Opportunities $408,170 in CSBG grant funds and
$565,563 in Recovery Act grant funds. During the same period, Opportunities expended total
Federal grant funds of $6,425,973.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and reasonable
allocation of costs to all benefitting programs. In addition, grantees must establish written
procurement procedures. Grantees also are required to maintain inventory control systems and
periodically take a physical inventory of grant-related equipment. In addition, pursuant to
45 CFR § 74.27, the allowability of costs incurred by nonprofit organizations is determined in


                                               1
accordance with the provisions of Office of Management and Budget Circular A-122, Cost
Principles for Non-Profit Organizations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Opportunities’ financial viability, capacity to manage and account
for Federal funds, and ability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of Opportunities’ financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of Opportunities’ internal control structure. Rather, we reviewed only the internal
controls that pertained directly to our objectives. Our review period was October 1, 2006,
through May 31, 2010.

We performed our fieldwork at Opportunities’ administrative office in Watonga, Oklahoma,
during June and July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that Opportunities is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Opportunities’ application for and use of Recovery Act grant awards;

   •    reviewed the findings related to the most recent State review of Opportunities;

   •    reviewed Opportunities’ policies and procedures related to the CSBG program;

   •    reviewed Opportunities’ bylaws, the minutes from its board of directors meetings, the
        composition of its board, and its organizational chart;

   •    performed audit steps to assess the adequacy of Opportunities’ current financial systems;
        and

   •    reviewed Opportunities’ audited financial statements and supporting documentation for
        the period October 1, 2006, through September 30, 2009.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Opportunities has the ability to manage and account for Federal funds and is capable of operating
a CSBG program in accordance with Federal regulations. However, CSBG has weaknesses
related to its use of funding for building improvements, allocation of labor costs, accounting
system, board of directors composition, and maintenance of property records.

USE OF FUNDING FOR BUILDING IMPROVEMENTS

The Recovery Act provides funding to carry out activities under sections 674 to 679 of the
CSBG Act. Section 678F of the CSBG Act states that unless the Secretary provides a waiver,
grants may not be used for the permanent improvement of any building.

Opportunities used funds from its CSBG Recovery Act grant to make permanent improvements
to a building leased for the Behavioral Care Services (BCS) program. The improvements
included a concrete parking lot and sidewalk, a playground fence, and kitchen improvements.
The parking lot and sidewalk cost $3,708. According to managers at the State agency and at
Opportunities, Opportunities had not requested a waiver for improvements. In addition, both
Opportunities and the landlord had the option of terminating the lease with 30 days advance
notice. On July 30, 2010, Opportunities posted entries to the general ledger to charge
unrestricted funds for the parking lot and sidewalk costs and remove the costs from the CSBG
Recovery Act grant.

ALLOCATION OF LABOR COSTS

Pursuant to OMB Circular A-122, Attachment A, section A.4.a: “A cost is allocable to a
particular cost objective, such as a grant, project, service or other activity, in accordance with the
relative benefits received.” In addition, section A.4.b, states: “Any cost allocable to a particular
award or other cost objective under these principles may not be shifted to other Federal awards to
overcome funding deficiencies ….”

Opportunities did not follow its policies and procedures for allocating labor costs. For example,
according to Opportunities’ allocation plan, the executive director’s salary should have been
allocated based on the number of employees in each program. For May 2010, the amount of the
executive director’s pay charged to the Head Start program varied slightly from the allocation
plan; however, amounts charged to other programs varied more significantly from the plan. For
example, the weatherization program was charged for 11.9 percent of the director’s time, but the
allocation was not included in the allocation plan. In addition, Opportunities did not allocate any
time to the BCS program or the Retired Seniors Visitation Program even though the allocation



                                                  3
plan showed that these programs should have been charged 8.3 percent and 0.9 percent,
respectively.

For other employees, the number of hours allocated in the allocation plan to certain programs did
not match the number of hours on the employees’ time sheets. The time sheet for one employee
showed that the employee had spent 34 hours on the BCS program and none on the
weatherization program. However, Opportunities had allocated 30 hours of the employee’s time
to the weatherization program and no hours to the BCS program. Another employee’s time sheet
showed that the employee had spent 52 hours on Early Head Start, 30 hours on Head Start, and
60 hours on unspecified programs. Opportunities had allocated 100 percent of the employee’s
time to Head Start.

In addition, Opportunities did not have a policy to equitably allocate sick leave, annual leave,
and holiday hours when an employee charged time to more than one program. For example,
Opportunities allocated 100 percent of one employee’s leave and holiday time to CSBG, though
the employee’s time sheet showed that 28 percent of the employee’s time had been spent on the
Child and Adult Food Care Program. The timesheet of another employee showed that the
employee had spent 34 percent of her time on CSBG, 31 percent on the Retired and Senior
Volunteer Program (RSVP), and 35 percent on unspecified programs. Opportunities allocated 50
percent of the employee’s hours to the CSBG program and 50 percent to the RSVP program.

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21(b)(3), grantees must provide effective control over and
accountability of all funds, property, and other assets to adequately safeguard all assets.
Pursuant to 45 CFR § 74.21, grantees must maintain financial systems that provide for accurate
and complete reporting of grant-related financial data.

Opportunities did not promptly record corrections for transactions posted in error. For example,
the May 2010 bank account reconciliation for the payroll account included four 2009 bank
deposits totaling $35,220 that were not made. In addition, the reconciliation for the accounts
payable bank account showed that Opportunities had posted to the accounting system a single
deposit twice on November 30, 2009, but had not posted a correcting entry for the duplicate
deposit.

COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board of directors that fully participates in the development, planning,
implementation, and evaluation of the programs that serve low-income communities. The board
of directors should be composed of one-third each of (1) elected public officials, (2)
representatives of the beneficiaries in areas served by a CSBG, and (3) members of business,
industry, labor, religious, law enforcement, education, or other major groups and interests in the
community served. Pursuant to Opportunities’ bylaws, the board was to have 18 directors.

Opportunities had 18 board of directors positions, but 2 private sector positions were vacant.


                                                4
MAINTENANCE OF PROPERTY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees are required to accurately maintain records for
equipment acquired with Federal funds and to identify Federal ownership of equipment.

Opportunities did not maintain a complete property record. The receiving procedures
Opportunities used did not ensure that the procurement officer received detailed property record
information, such as serial numbers, for all information technology equipment. In addition,
Opportunities purchased a refrigerator, a wall oven, a cook-top stove, two washers, and two
dryers for $4,545 in April 2010 but did not include the appliances in its property records.
Furthermore, Opportunities did not have a system for identifying Federal ownership of
equipment and other purchases.

RECOMMENDATIONS

In determining whether Opportunities is appropriately managing and accounting for the
Recovery Act grant funding, we recommend that ACF consider the information presented in this
report in assessing Opportunities’ ability to operate a CSBG program in accordance with Federal
regulations. In addition, Opportunities should work with the State to address the weaknesses we
found.

OPPORTUNITIES, INC., COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Opportunities generally agreed with our findings and
described actions it had taken to address them. In response to our finding that Opportunities did
not have effective internal controls to adequately safeguard Federal funds in excess of FDIC
limits, Opportunities provided support that its bank participated in the FDIC’s Transaction
Account Guarantee Program, which would have protected the funds. As a result, we removed
that finding from our report. Opportunities’ comments are included in their entirety as the
Appendix.




                                                5
APPENDIX
                                                                                                                              Page 1 of3


                                 APPENDIX: OPPORTUNITIES, INC., COMMENTS


                                           OPPORTUNITIES, INC . 

                                                        •
                                                       OAcii;'n.
                                                         _,."r",,,Il,,,., ..
                                                         ""Iping-'~u......



                            117 WEST RUSSWORM • 1'.0. HOX %9 . WATONGA,OK 13m       . 580-623-7283 .   FAX 58(J...623 -1290


T ERRY n URBERI S ,
     J:::XEClJIW.t::
      DfRECTOR

   HFAD START &
    HOMEBASED 
                    January 18, 2011
    HEAD START 

                                   Patricia Wheeler, Regional Inspector General for Audit Services
           RSVP
           Vn-A                    Office of Audit Services, Region VI
                                   11 00 Commerce Street, Room 632
          HO:\.{E                  Dallas, TX 75242
WEATHERIZATION
                                   Re: A-06- 10-0oo89
        CSBG 

      OUTREACH 

                                   Dear Ms. Wheeler,
    EMERGEKCY 

          FOOD 
                   We appreciate the opportu ni ty o f having John Retzloff and Major Wilson visit us
              &                    recently and monitor our activity with the SCSBG grant. Your team 's assistance,
        SHELTER
                                   inp ut and reeumml:ndatiu ns an.: an important piece of our agcncy's gual to impact
    BEllA VIORAt 
                 the lives of our clients and communities in our 13 county service area.
        CARE 

     SERVICES 
                    Many of the recommendati ons harl previously been identified in the ODOC
                                   monitoring visits and plans of action were in place to correct the ilems.
          CACFP

     HEARTLAND 
                   Below are the responses to the findings fTUm the Junc 28111 thru July 2nd visit.
      VIU-AGE 

    APARTMENTS 
                   Problt.-m # I - .Usc of Funding for Building ImprovL1m:nts
     HENNESSEY 


HEARTLAND HOUS 
                   Corrcctive Action # 1 - Thcse items were identified and entri es made before the
    APARTMENTS 
                   DIG team left to correct the items identi fied as improvements.
    WOODWARD 

                                   Problem #2 - A llocation of Lahor Cost
     HEARTLAND 

     ORIGINAL 

    APARTMENTS 

                                   Corrective Action #2 - TIle May 20 10 labor distribution for thc cxecutivc dircctor
        GUYMON 
                   did not reflect the agcney's al location plan. We are in the process of changing to a
                                   new timesheet system that is integrated into our accounting system so the change of
RX FOR OKLAHOM)                    error b y the data entry person will he eliminated. Allocations to ensure correct
    Fo, Informatioo
                                   distribution w ill be implemented into the ~yst em during set up.
 www.oppo<turliri ... il>C . ~




                                                  "A COMMUNlTYACTION AGENCY"
                                                      PEOPLE HELPING PEOPLE
                                                                                                  Page 2 of3




Problem #3- Accoullting System

Corrective Action # 3·We have discussed these issues with ODOC, Sage software, a Consultant,
and our Auditor. We are currently working with Sage and our Auditor to fix the system issues
associated with double entries. We have a Sage consultant scherluled to work with us the week
of January 24111 to try to remedy our system issues, We hope to have all issues resolved after that
week.

Problem #4-Safeguarding of Federal Funds

Corrective Action #4- We are getting infonnation from our bank showing that during the time of
this grant, the funds were insured.. Infonnarion attached.

Problem 1I-5-Composition uflbe Board of Directors

Corrective Action #5- As of January, 2011, Opportunities, Inc. has a full 18-member board uf
directors with equal representation from (1) elected public officials, (2) low-income
communities/organizations, and (3) private citizens representing businesses lind organizations
within our communities served.

Problem #6-Mnintenanee of Property Records

Corrective Action #5- With SCS13G funds, we hired two employees to do 8 complete on-site
check of all invcntory. Wc havc dcveloped an online systcm to track and printlabcls tor all
equipment.

As always, we appreciate you and your staff. If you have any questions or concerns, please
enntact me or Susan Smith, Opportunitie.~, Inc. Compliance Officer.


sC1~~e;:n/AA~
~F-Vd
Associate E xecutive Director

Cc:     Sarah Rodefcld

Ene!.
Rita Patel
From :                    Lori Osmus
Se nt:                    Tuesday, January
To:                       Rita Patel


To Whom It May Concern:

  The First State Bank of Watonga Oklahoma participated in t he FDIC's Transaction Account Guarantee Program from its Inception in 2008, through December
31,2010, under which all non interest-bearing transaction accounts were fully guaranteed by t he FDIC for the entire amount in the account including low­
Interest NOW accounts with annual percentage rates as provided under the FDICs Transaction Account Guarantee Program (.5% t hrough Ju ne 30, 2010 .25%
July 1, 2010 th rough December 31,2010).

Lori Osmus
V.P. & Cashier
